NO.
IN THE

Supreme Court of the United States
M. CHRISTINE SHAFFER, AS EXECUTRIX OF THE
ESTATE OF ADELAIDE CHUCKROW,
—V.—
COMMONWEALTH OF MASSACHUSETTS,
COMMISSIONER OF REVENUE,

Petitioner,

Respondent.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 8,839 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on October 8, 2020.

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

